2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

: E-Mail Address:
Legal B Ea efs contact@cocklelegalbriefs.com
st. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-

JAMES M. PERNA,
Petitioner,
v.
HEALTH ONE CREDIT UNION;
NATIONAL CREDIT UNION ADMINISTRATION;
NATIONAL CREDIT UNION ADMINISTRATION BOARD,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4486 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of May, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska QO Law Ke Che
q RENEE J. GOSS 9. 's
Notary Public

My Comm. Exp. September 5, 2023

 

Affiant 40920
